         Office of Inspector General




September 29, 2006

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA

SUBJECT: Management Advisory – Delivery and Retail Standard Operating
         Procedures – Great Lakes Area (Report Number DR-MA-06-008)

This report presents the results of our review of the implementation of Delivery and
Retail Standard Operating Procedures (SOP) in the Great Lakes Area (Project Number
06XG016DR001). Our overall objective was to assess implementation of Delivery and
Retail SOP in the Great Lakes Area. This is one in a series of reports on Delivery and
Retail operations issued under the Value Proposition Agreement between the Vice
President, Delivery and Retail, and the U.S. Postal Service Office of Inspector General
(OIG) Delivery and Retail directorate. The information in this report will be included in a
nationwide capping report assessing implementation of Delivery and Retail SOP.

Great Lakes Area, selected districts and delivery and retail unit officials implemented
the Delivery and Retail SOP for city and rural delivery and Function 4 (customer
service) operations. Implementation included training supervisors and managers,
developing action steps for “vital few” units and outlining future plans to complete
remaining reviews and certifications by the end of fiscal year (FY) 2006. Officials also
certified delivery and retail units under Morning Standard Operating Procedures
(AMSOP) and Rural Delivery Standard Operating Procedures (RDSOP) and conducted
Function 4 reviews. Based on our review of the city and rural delivery and Function 4
SOP, the Great Lakes Area implemented each component except for selected aspects
of AMSOP, Integrated Operating Plan (IOP), Delivery Point Sequencing (DPS),
matching workhours to workload, and RDSOP. During our review, officials implemented
corrective actions to improve the DPS component and certify units with 10 or more rural
routes under RDSOP.

The AMSOP component needs improvement because area officials did not have a
specific plan to help level 22 and above units achieve AMSOP certification. District
officials did not always resolve and close IOP discrepancies timely. In addition, unit
officials did not document unauthorized overtime and carriers' performance feedback.
Further, unit officials did not prepare rural delivery workload analysis because they were
not familiar with the RDSOP. As a result, workhour efficiency in an evaluated workload
environment and alignment of actual to standard hours could be adversely impacted.

In addition, area officials were continuing to address the challenges associated with the
“vital few” performers. Area officials were monitoring and tracking the performance of
the districts and delivery and retail units. The Area Vice President discussed
performance scores in service and costs with each district manager on a quarterly
basis.

We recommended the Vice President, Great Lakes Area, direct the Area Manager,
Delivery Programs Support, to develop a specific plan to help the level 22 and above
delivery units achieve AMSOP certification. We also recommended the Vice President,
Great Lakes Area, direct the Central Illinois and Greater Indiana District Managers to
resolve and close IOP discrepancies; and to require unit supervisors to document
unauthorized overtime and take appropriate corrective actions, document carrier
performance feedback, and prepare the rural delivery workload analysis required by the
SOP.

Management agreed with our findings and recommendations and has taken or planned
corrective actions to address issues identified in this report. Management’s comments
and our evaluation of these comments are included in the report.

The U.S. Postal Service Office of Inspector General (OIG) considers all
recommendations significant, and therefore requires OIG concurrence before closure.
The OIG has reviewed management’s responses to these recommendations and
agrees that recommendations 1 and 5 should be closed in the follow-up tracking system
with the issuance of this report. Consequently, the OIG requests written confirmation
when corrective actions are completed for recommendations 2, 3, and 4. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Rita F. Oliver,
Director, Delivery and Retail, or me at (703) 248-2100.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments
cc: Patrick R. Donahoe
    William P. Galligan, Jr.
    Kathy Ainsworth
    Peter Allen
    Charles E. Howe
    Steven R. Phelps
Delivery and Retail Standard Operating Procedures –                       DR-MA-06-008
 Great Lakes Area



                                   TABLE OF CONTENTS

 Executive Summary                                                              i

 Part I                                                                         1

 Introduction                                                                   1

     Background                                                                 1
     Objective, Scope, and Methodology                                          3
     Prior Audit Coverage                                                       4

 Part II

 Results                                                                        5

     Implementation of Standard Operating Procedures in the Great Lakes         5
     Area

     Morning Standard Operating Procedures                                      7
     Recommendation                                                             7
     Management’s Comment’s                                                     7
     Evaluation of Management’s Comments                                        8

     Integrated Operating Plans                                                 8
     Recommendation                                                             9
     Management’s Comment’s                                                     9
     Evaluation of Management’s Comments                                        9

     Delivery Point Sequencing                                                  9

     Matching Workhours to Workload                                           11
     Recommendations                                                          11
     Management’s Comment’s                                                   12
     Evaluation of Management’s Comments                                      12

     Rural Delivery Standard Operating Procedures                             12
     Recommendation                                                           13
     Management’s Comment’s                                                   13
     Evaluation of Management’s Comments                                      13

     “Vital Few” List                                                         14

 Appendix A. Prior Audit Coverage                                             15
Delivery and Retail Standard Operating Procedures –        DR-MA-06-008
 Great Lakes Area




 Appendix B. Great Lakes Area Implementation of Delivery       18
             and Retail Standard Operating Procedures

 Appendix C. Management’s Comments                             19
Delivery and Retail Standard Operating Procedures –                                 DR-MA-06-008
 Great Lakes Area


                                   EXECUTIVE SUMMARY
 Introduction                   This report presents the results of our review of the
                                implementation of Delivery and Retail Standard Operating
                                Procedures (SOP) in the Great Lakes Area (Project Number
                                06XG016DR001). Our overall objective was to assess
                                implementation of Delivery and Retail SOP in this area.

 Results in Brief               Great Lakes Area, selected districts and delivery and retail
                                unit officials implemented the Delivery and Retail SOP for
                                city and rural delivery and Function 4 (customer service)
                                operations. Implementation included training supervisors
                                and managers, developing action steps for “vital few” units,
                                and outlining future plans to complete remaining reviews
                                and certifications by the end of fiscal year (FY) 2006.
                                Officials also certified delivery and retail units under Morning
                                Standard Operating Procedures (AMSOP) and Rural
                                Delivery Standard Operating Procedures (RDSOP) and
                                conducted Function 4 reviews. Based on our review of the
                                city and rural delivery and Function 4 SOP, the Great Lakes
                                Area implemented each component except for selected
                                aspects of AMSOP, Integrated Operating Plan (IOP),
                                Delivery Point Sequencing (DPS), matching workhours to
                                workload, and RDSOP. During our review, officials
                                implemented corrective actions to improve the DPS
                                component and certify units with 10 or more rural routes
                                under RDSOP.

                                The AMSOP component needs improvement because area
                                officials did not have a specific plan to help level 22 and
                                above units achieve AMSOP certification. District officials
                                did not always resolve and close IOP discrepancies timely.
                                In addition, unit officials did not document unauthorized
                                overtime and carriers' performance feedback. Further, unit
                                officials did not prepare rural delivery workload analysis and
                                were not familiar with the RDSOP. As a result, workhour
                                efficiency in an evaluated workload environment and
                                alignment of actual to standard hours could be adversely
                                impacted.

                                In addition, area officials were continuing to address the
                                challenges associated with the “vital few” performers. Area
                                officials were monitoring and tracking the performance of
                                the districts and delivery and retail units. The Area Vice




                                                      i
Delivery and Retail Standard Operating Procedures –                                  DR-MA-06-008
 Great Lakes Area



                                President discussed performance scores in service and
                                costs with each district manager on a quarterly basis.

 Summary of                     We recommended the Vice President, Great Lakes Area,
 Recommendations                direct the Area Manager, Delivery Programs Support, to
                                develop a specific plan to help the level 22 and above
                                delivery units achieve AMSOP certification. We also
                                recommended the Vice President, Great Lakes Area, direct
                                Central Illinois and Greater Indiana District Managers to
                                resolve and close IOP discrepancies; and to require unit
                                supervisors to document unauthorized overtime and take
                                appropriate corrective actions, document carrier
                                performance feedback, and prepare the rural delivery
                                workload analysis required by the SOP.

 Summary of                     Management agreed with our findings and
 Management’s                   recommendations. Management developed a more
 Comments                       restrictive timeline plan for each of their districts along with
                                definitive program completion dates for units to achieve
                                AMSOP certification status. Regarding IOP discrepancies,
                                management plans to work with the districts in identifying
                                problematic resolution processes and coordinate, with local
                                program designees, improved procedures and redefined
                                accountabilities required to meet service standards and
                                reduce costs by no later than October 31, 2006.

                                Management also plans to disseminate an area directive to
                                all district offices by no later than October 31, 2006, relative
                                to compliance expectations regarding utilization of the
                                Postal Service Form 1017-B, Unauthorized Overtime
                                Record, and carrier feedback documentation. Further,
                                management has taken the necessary actions to ensure
                                that the RDSOP workload analyses and logs are not only
                                established and maintained at the Central Illinois and
                                Greater Indiana Districts, but also throughout the remaining
                                districts in the Great Lakes Area. Management’s
                                comments, in their entirety, are included in Appendix C.




                                                      ii
Delivery and Retail Standard Operating Procedures –                              DR-MA-06-008
 Great Lakes Area




 Overall Evaluation of          Management’s comments are responsive to our findings
 Management’s                   and recommendations. Management’s corrective actions,
 Comments                       taken and planned, should address the issues identified in
                                this report.




                                                      iii
Delivery and Retail Standard Operating Procedures –                                                     DR-MA-06-008
 Great Lakes Area


                                              INTRODUCTION
    Background                      Each day the U.S. Postal Service receives and delivers over
                                    700 million pieces of mail. The Postal Service delivers mail
                                    to 144 million city and rural addresses across a network of
                                    37,000 post offices and retail outlets. To receive and deliver
                                    the mail, the Postal Service has an annual field budget of
                                    about $60 billion of which about 51 percent is used for
                                    delivery and retail operations. Annual salary and benefits in
                                    fiscal year (FY) 2006 for rural and city carriers total about
                                    $22 billion and around $8 billion for Function 4 (customer
                                    service) operations. The Great Lakes Area’s FY 2006
                                    budget is $2.9 billion1 for city and rural delivery operations
                                    and $929.8 million for Function 4 (customer service)
                                    operations. The area is responsible for nine districts and
                                    services approximately 3,900 delivery and retail units.2

                                    To ensure the efficient use of resources, the Vice President,
                                    Delivery and Retail, issued a letter on September 30, 2005,
                                    stating that all delivery and retail units will officially
                                    implement the Standard Operating Procedures (SOP)
                                    beginning in FY 2006 to establish standard practices
                                    for managing all delivery and retail functions. In
                                    November 2005, Postal Service senior management
                                    officials requested audit assistance from the U.S. Postal
                                    Service Office of Inspector General (OIG) to assess
                                    implementation of the SOP and determine how the area is
                                    monitoring units on the “vital few”3 list. In response to the
                                    request, the OIG began its nationwide review of the Postal
                                    Service’s implementation of the SOP in January 2006.

                                    The SOP consists of procedures to manage city and rural
                                    delivery and Function 4 operations. Postal Service officials
                                    must implement the SOP consistently and establish a
                                    review process to validate that the programs are operable.
                                    Officials must also take appropriate responsibility for
                                    developing plans that will assure that the SOP are
                                    understood and functional.



1
  This total consists of $2.18 billion for city delivery and $722.2 million for rural delivery operations.
2
  Some of these units do not have all three components: city delivery, rural delivery and retail operations. Therefore,
they do not have budgeted workhours for all three operations.
3
  “Vital few” units have the largest opportunity for improvement in city and rural delivery and Function 4 operations,
and require specific management actions.



                                                           1
Delivery and Retail Standard Operating Procedures –                                                       DR-MA-06-008
 Great Lakes Area



                                     Morning Standard Operating Procedures (AMSOP) are an
                                     important component of city delivery SOP. AMSOP
                                     standardizes daily city carrier functions to align actual
                                     workhours to base workhours. The FY 2006 goal is to
                                     certify4 all level 225 and above Delivery Operations
                                     Information System (DOIS) sites by September 30, 2006.

                                     For rural delivery, the SOP standardizes daily rural carrier
                                     functions to align actual workhours to standard workhours.
                                     The FY 2006 goal is to certify6 75 percent of units with 10 or
                                     more rural routes and those units identified as “vital few.”

                                     The Function 4 operations goal is to provide a standardized
                                     and comprehensive structure for the development of an
                                     integrated review cycle that continually identifies and
                                     quantifies savings opportunities. In addition, management
                                     should conduct Function 4 Business Reviews7 to identify
                                     units with the largest opportunity for workhour
                                     improvements.

                                     A key component of the SOP is the identification of “vital
                                     few” units. These units have the largest opportunity for
                                     improvement in city and rural delivery and Function 4
                                     operations and require specific management actions.
                                     Postal Service Headquarters provides area officials with the
                                     “vital few” list quarterly based on the performance of the
                                     previous quarter. The area monitors the “vital few” units
                                     and develops action plans to correct their performance
                                     issues in city and rural delivery and Function 4 operations.

                                     Postal Service Headquarters provided delivery and retail
                                     standardization training to Area Managers of Delivery
                                     Support Programs on September 7 and 8, 2005. In

4
  District program managers conduct a certification audit of a city delivery unit’s operations to determine if supervisors
are matching workhours to workload, time attendance reports, office configuration, and use of authorized overtime.
Units must achieve a score of 95 percent or greater for certification.
5
  A level 22 post office is a grade level assigned to the postmaster of a post office according to the total number of
workload service credits attributed to the facility. The credits are based on a combination of the responsibilities of the
postmaster, the number of employees, the size of the facility, and various operations performed within each post
office.
6
  District program managers conduct a formalized rural management review focusing on improving efficiency in an
evaluated workload environment to more closely align actual to standard hours, reduce overtime, and reduce
auxiliary assistance hours. Units must achieve a score of 85 percent or greater for certification.
7
  The on-site review focuses on improving efficiency in an evaluated workload environment, which will result in closer
alignment of actual hours to budgeted hours. Function 4 SOP teams complete the on-site reviews and an Integrated
Operations Business Plan Committee provides critical support to ensure attainment of major organizational targets.



                                                            2
Delivery and Retail Standard Operating Procedures –                                                DR-MA-06-008
 Great Lakes Area


                                  addition, Postal Service Headquarters issued a
                                  memorandum on October 13, 2005, to each area outlining
                                  the area’s responsibility for training managers on the SOP.
                                  Each area was responsible for training districts by
                                  October 31, 2005. The districts were responsible for
                                  completing training for all levels of management by
                                  November 15, 2005. Further, Postal Service Headquarters
                                  requested that each area establish a review process to
                                  validate whether the SOP were adopted to ensure
                                  consistent implementation. Finally, Postal Service
                                  Headquarters informed area officials that the “vital few” list
                                  requires their attention and monitoring, which includes
                                  action plans to correct performance issues in city and rural
                                  delivery and Function 4 operations.

    Objective, Scope, and         Our overall objective was to assess implementation of
    Methodology                   Delivery and Retail SOP in the Great Lakes Area.
                                  Specifically, we determined whether Great Lakes Area
                                  officials have implemented SOP in city and rural delivery
                                  and Function 4 operations. The scope of this review
                                  focused on whether area officials implemented the SOP at
                                  the area level and at selected districts and delivery and
                                  retail units within the area. We did not determine the
                                  effectiveness of the implemented SOP, but plan to perform
                                  future reviews and identify opportunities to increase
                                  revenue, reduce costs, and improve customer service.

                                  We visited Postal Service Headquarters and the Great
                                  Lakes Area to interview management officials and obtain
                                  performance data. We judgmentally selected the Central
                                  Illinois and Greater Indiana Districts, the Frankfort,
                                  Naperville, Park Fletcher and Wanamaker delivery and retail
                                  units to review based on discussions with Postal Service
                                  Headquarters Delivery and Retail officials and review of
                                  FY 2006 delivery and retail performance data for week 10.8
                                  We reviewed and analyzed performance data obtained from
                                  Postal Service systems from October 2005 through
                                  June 2006 and discussed the results with Postal Service
                                  officials.9 We relied on data from these systems to conduct
                                  interviews and analysis. However, we did not directly audit
                                  the systems, but discussed with Postal Service officials the

8
  Week 10 performance data was only for that specific week. The weekly performance data roll-up processes began
in week 14, with year-to-date information available beginning week 19.
9
  During our review timeframe, we analyzed performance data roll-up information for week 19 year-to-date and week
34 year-to-date.



                                                        3
Delivery and Retail Standard Operating Procedures –                               DR-MA-06-008
 Great Lakes Area


                                relevance of the data to delivery and retail performance
                                during our fieldwork.

                                We conducted this review from January through September
                                2006 in accordance with the President’s Council on Integrity
                                and Efficiency, Quality Standards for Inspections. We
                                discussed our observations and conclusions with
                                appropriate management officials and included their
                                comments where appropriate.

 Prior Audit Coverage           The OIG has issued 12 audit reports related to delivery and
                                retail operations. While none of these reports are directly
                                related to our objective, they do identify opportunities to
                                improve management of delivery and retail operations
                                issues. The details of the reports are included in
                                Appendix A.




                                                      4
Delivery and Retail Standard Operating Procedures –                                                   DR-MA-06-008
 Great Lakes Area


                                                   RESULTS
 Implementation of                 The Great Lakes Area, selected districts and delivery and
 Standard Operating                retail unit officials implemented the SOP in city and rural
 Procedures in the                 delivery and Function 4 operations which included:
 Great Lakes Area
                                       Completing SOP training between September and
                                        November 2005, for supervisors and managers
                                        responsible for city and rural delivery and Function 4
                                        operations at the district and unit levels.10

                                       Developing action steps for units identified as “vital few.”

                                       Outlining future plans to complete remaining reviews and
                                        certifications on AMSOP, Rural Delivery Standard
                                        Operating Procedures (RDSOP) and Function 4
                                        Business Review locations by September 30, 2006.

                                   Great Lakes Area officials certified 17 percent (33 of 199)
                                   of their level 22 and above DOIS sites under AMSOP.11
                                   During FY 2006, week 34 year-to-date, the city delivery
                                   office hours (percent to standard) exceeded standard
                                   workhours by 106.88 percent. This was a decrease in
                                   hours from week 19 year-to-date, when the office hours
                                   exceeded the standard hours by 107.87 percent. During
                                   this same period, the delivery per hour percentage
                                   exceeded the same period last year percentage by
                                   1.43 percent. This was an increase from week 19 year-to-
                                   date, when the delivery per hour percentage exceeded the
                                   same period last year by 0.82 percent.12

                                   Further, area officials had certified 38 percent (53 of 140) of
                                   their rural units identified as “vital few” under RDSOP.13
                                   During FY 2006, week 34 year-to-date, rural delivery total
                                   actual workhours exceeded standard workhours by
                                   5.04 percent. This was a decrease from week 19 year-to-
                                   date, when the actual hours exceeded the standard hours
                                   by 6.44 percent.

                                   Finally, area officials had conducted Function 4 Business
                                   Reviews at 41 percent (95 of 233) of their planned

10
   The area conducted a leadership meeting for its managers in city and rural delivery and Function 4 operations.
11
   Information as of April 2006.
12
   We are planning a future review on city carrier street performance.
13
   Information as of June 2006.



                                                          5
Delivery and Retail Standard Operating Procedures –                                     DR-MA-06-008
 Great Lakes Area


                                    locations.14 During FY 2006, week 34 year-to-date,
                                    Function 4 total earned hour variance was 1.32 million
                                    workhours. This was an increase from week 19 year-to-
                                    date, when the earned hour variance was 650,287
                                    workhours. During the same period, the window staffing
                                    efficiency for week 34 was 76.6 percent. This was a
                                    decrease from week 19 year-to-date when the window
                                    staffing efficiency was 79.4 percent.

                                    Based on our review of the city and rural delivery and
                                    Function 4 SOP, the Great Lakes Area implemented each
                                    component of the SOP except for selected aspects of
                                    AMSOP, Integrated Operating Plan (IOP), Delivery Point
                                    Sequencing (DPS), matching workhours to workload, and
                                    RDSOP. (See Appendix B.) During our review, officials
                                    implemented corrective actions to improve the DPS
                                    component and certify units with 10 or more rural routes
                                    under RDSOP.

                                    The AMSOP component needs improvement because area
                                    officials did not have a specific plan to help level 22 and
                                    above units achieve AMSOP certification by the end of
                                    FY 2006. District officials did not always resolve and close
                                    IOP discrepancies timely. In addition, unit officials did not
                                    document unauthorized overtime and carriers' performance
                                    feedback.

                                    Further, unit officials did not prepare rural delivery workload
                                    analysis and were not familiar with the RDSOP. As a result,
                                    the Postal Service’s goal of improving units’ efficiency in an
                                    evaluated workload environment and alignment of actual to
                                    standard hours could be adversely impacted.

                                    In addition, area officials were continuing to address the
                                    challenges associated with the “vital few” performers. Area
                                    officials were monitoring and tracking the performance of
                                    the districts and delivery and retail units. The Area Vice
                                    President discussed performance scores in service and
                                    costs with each district manager on a quarterly basis.




14
     Information as of June 2006.



                                                      6
Delivery and Retail Standard Operating Procedures –                                  DR-MA-06-008
 Great Lakes Area




 Morning Standard               Although the Great Lakes Area implemented the SOP, area
 Operating                      officials did not have a specific plan to help level 22 and
 Procedures                     above units achieve AMSOP certification by the end of
                                FY 2006.

                                Area officials stated they have made AMSOP requirements
                                part of their overall strategies for FY 2006. They discussed
                                unit status at area operations meetings and continued to
                                monitor progress. However, as of April 2006, only 33
                                (17 percent) of the 199 level 22 and above delivery units in
                                the Great Lakes Area were AMSOP certified. Central
                                Illinois and Greater Indiana District officials stated that due
                                to turnover and the experience level of supervisors, many
                                units did not meet performance indicators required for
                                AMSOP certification.

                                The Postal Service implemented AMSOP nationally during
                                FY 2005 for city delivery units. The national implementation
                                standardized daily city carrier functions to align actual
                                workhours to base workhours. The FY 2006 goal is that all
                                level 22 and above DOIS sites become AMSOP certified by
                                September 30, 2006. In order to have an effective AMSOP
                                process, officials must work jointly to create and establish
                                procedures for daily commitments toward each other’s
                                success.

                                The primary intent and purpose of AMSOP certification is to
                                standardize daily carrier office functions and incorporate
                                IOP into the management of carrier morning office
                                procedures. Effective implementation will reduce workhour
                                utilization, stabilize carrier depart and return times, and
                                enhance service to customers.

 Recommendation                 We recommend the Vice President, Great Lakes Area,
                                direct the Area Manager, Delivery Programs Support, to:

                                    1. Develop a specific plan that will help the level 22 and
                                       above units achieve Morning Standard Operating
                                       Procedures certification by the end of fiscal year
                                       2006.

 Management’s                   Management agreed with the finding and recommendation.
 Comments                       Management developed a more restrictive timeline plan for
                                each of their districts along with definitive program


                                                      7
Delivery and Retail Standard Operating Procedures –                                                 DR-MA-06-008
 Great Lakes Area


                                  completion dates for achieving the certification status, and is
                                  cognizant of the FY 2006 completion objective.
                                  Management noted that a site specific plan has been
                                  formulated in conjunction with the area’s route evaluation
                                  and adjustment strategies for FY 2007. Management stated
                                  that this blueprint for AMSOP certification sets achievement
                                  ratios of 49 percent, 58 percent, 91 percent, and 100
                                  percent for Quarters 1, 2, 3, and 4, respectively, for the
                                  remaining noncertified level 22 and above offices.

 Evaluation of                    Management’s comments are responsive to our finding and
 Management’s                     recommendation. Management’s corrective actions, taken
 Comments                         and planned, should address the issues identified in the
                                  finding.

 Integrated Operating             District officials did not always resolve and close IOP
 Plans                            discrepancies15 timely. We identified 676 pending IOP
                                  discrepancies in the Central Illinois District as of May 2006.
                                  The discrepancies resulted primarily from processing
                                  machine errors, late dispatches, and DPS quality and
                                  volumes. Of the 676 open discrepancy reports, 357 were
                                  awaiting assignment and 319 were awaiting either closeout
                                  or submission for closeout. Central Illinois District officials
                                  said they did not resolve the discrepancies timely due to
                                  inadequate communication and follow through with
                                  processing center officials.

                                  In addition, we identified 22 pending IOP discrepancies in
                                  the Greater Indiana District as of January 2006. The
                                  discrepancies resulted primarily from processing machine
                                  errors, human errors, and issues with transportating the
                                  mail. We also noted district officials dismissed or closed
                                  262 discrepancies without resolution due to the amount of
                                  time that had lapsed since the units reported them. District
                                  officials also did not follow through with the resolution of
                                  discrepancies or document the reasons for dismissing or
                                  closing of discrepancies.

                                  Management uses the IOP to improve mail flow between
                                  processing plants and delivery units. These plans develop
                                  accountability by:


15
   IOP discrepancies occur due to automation or human errors that impact the agreed upon mail arrival times
outlined in the plan.



                                                        8
Delivery and Retail Standard Operating Procedures –                                                    DR-MA-06-008
 Great Lakes Area



                                       Establishing a schedule of dispatches from the plant to
                                        each delivery unit and the types of mail (by shape and
                                        level of sortation) the plant will send on each dispatch.

                                       Tracking the arrival of dispatches at the delivery unit and
                                        the types of mail (by shape and level of sortation) on
                                        each dispatch.

                                       Providing performance cluster managers with a cross-
                                        functional, end-to-end overview of their operations that
                                        will facilitate better operating results.

                                    The IOP will improve mail-processing performance among
                                    plants and delivery units. When management does not
                                    timely resolve IOP discrepancies, delivery service and
                                    operational costs are negatively impacted.

 Recommendation                     We recommend the Vice President, Great Lakes Area,
                                    direct the District Managers, Central Illinois and Greater
                                    Indiana, to:

                                         2. Resolve and close Integrated Operating Plan
                                            discrepancies timely as required by Standard
                                            Operating Procedures.

 Management’s                       Management agreed with the finding and recommendation.
 Comments                           Management plans to work with the districts in identifying
                                    problematic resolution processes and coordinate, with local
                                    program designees, improved procedures and redefined
                                    accountabilities required to meet service standards and
                                    reduce costs by no later than October 31, 2006.

 Evaluation of                      Management’s comments are responsive to our finding and
 Management’s                       recommendation. Management’s corrective actions, taken
 Comments                           and planned, should address the issues identified in the
                                    finding.

 Delivery Point                     The Great Lakes Area did not achieve the national average
 Sequencing                         for DPS mail. Their DPS mail percentage was about
                                    76 percent (or approximately 1 percent below the national
                                    average).16

16
  We are planning a future audit that will incorporate DPS percentages to identify opportunities to increase revenue,
reduce costs, and improve customer service.



                                                          9
Delivery and Retail Standard Operating Procedures –                                         DR-MA-06-008
 Great Lakes Area



                                DPS is the process of getting barcoded mail into the
                                carrier’s walk sequence so the carrier can deliver it without
                                manual sorting before going to the street. The goal of DPS
                                is to improve efficiency and reduce costs. Increasing DPS
                                letters percentage equates to decreasing cased letter
                                volume and, therefore, time spent by the carriers in the
                                office. As shown in Table 1, nationally, the average DPS
                                percentage for FY 2005 was approximately 77 percent, with
                                some areas achieving DPS percentages in the 80s.

                                Area officials stated their low DPS percentage was due to
                                missing address information and inaccurate volume
                                recording. In an effort to improve DPS percentages,
                                personnel from the area office and three of its performance
                                clusters attended DPS training in Boston, Massachusetts,
                                on June 28 and 29, 2005. Two of the three clusters were
                                among the “vital few” clusters for DPS percentage in the
                                area. According to area officials, DPS percentages have
                                been improving since the training. Area officials
                                subsequently visited one of its "vital few" clusters to
                                address areas of improvement.

                                          Table 1. Average Delivery Point Sequencing
                                                    Percentages for FY 2005


                                                                       Actual DPS%
                                                            Area        (FY 2005)
                                                      Western               82
                                                      Northeast             82
                                                      Southwest             80
                                                      Southeast             79
                                                      Pacific               76
                                                      Great Lakes           76
                                                      Eastern               75
                                                      New York Metro        72
                                                      Capital Metro         71
                                                      Average               77

                                    Source: Information provided by Postal Service Headquarters officials

                                With the Postal Service continuing to have delivery growth,
                                an increase in DPS letters is essential to decreasing cased
                                letter volume and time spent by the carriers in the office.
                                Great Lakes Area officials implemented corrective action to
                                improve their DPS scores, which included meeting with
                                district officials to discuss missing address information and



                                                      10
Delivery and Retail Standard Operating Procedures –                                 DR-MA-06-008
 Great Lakes Area


                                inaccurate volume recording. Since officials implemented
                                corrective action to improve DPS scores, we are not making
                                any recommendations.

 Matching Workhours             The Frankfort, Naperville, Park Fletcher and Wanamaker
 to Workload                    delivery units did not always adhere to policies to
                                adequately match workhours to workload by documenting
                                unauthorized overtime and performance feedback.

                                Unit supervisors did not use Postal Service (PS)
                                Form 1017-B, Unauthorized Overtime Record, to record
                                unauthorized overtime occurrences because other duties
                                took priority. Postal Service policy requires supervisors to
                                use the form to document unauthorized overtime.
                                Documenting unauthorized overtime is very important so
                                supervisors can reference it to correct performance issues
                                and manage overtime hours.

                                In addition, unit managers did not consistently use the
                                DOIS performance reports to document carriers'
                                performance feedback. Unit managers stated they
                                conducted verbal performance discussions with carriers.
                                However, they did not have enough time to document
                                expectations and performance discussions. Postal Service
                                procedures require management to document expectations
                                and performance through proper use of control forms
                                including the DOIS performance reports. Keeping a written
                                record of carriers’ performance feedback is important so
                                management can use it as reference to reduce overtime
                                costs and improve quality of service.

 Recommendation                 We recommend the Vice President, Great Lakes Area,
                                direct the District Managers, Central Illinois and Greater
                                Indiana, to require unit officials to:

                                    3. Document unauthorized overtime using PS
                                       Form 1017-B, Unauthorized Overtime Record,
                                       and take corrective actions.

 Management’s                   Management agreed with the finding and recommendation.
 Comments                       Management stated that while they recognize that the
                                accurate utilization of PS Form 1017-B, contributes to
                                improving employee performance, it is only one component
                                of properly managing the delivery unit. Management stated
                                they will disseminate an area directive to all district offices


                                                      11
Delivery and Retail Standard Operating Procedures –                                    DR-MA-06-008
 Great Lakes Area


                                regarding compliance in using the forms by no later than
                                October 31, 2006.

 Recommendation                 We recommend the Vice President, Great Lakes Area,
                                direct the District Managers, Central Illinois and Greater
                                Indiana, to require unit officials to:

                                    4. Use Delivery Operations Information System
                                       performance reports to document carriers'
                                       performance feedback.

 Management’s                   Management agreed with the finding and recommendation.
 Comments                       Management plans to disseminate an area directive to all
                                district offices relative to compliance regarding carrier
                                feedback documentation by no later than October 31, 2006.

 Evaluation of                  Management’s comments are responsive to our findings
 Management’s                   and recommendations 3 and 4. Management’s corrective
 Comments                       actions, taken and planned, should address the issues
                                identified in the finding.

 Rural Delivery                 Area officials had not identified all units with 10 or more
 Standard Operating             rural routes for certification for their districts. This occurred
 Procedures                     because management’s primary focus was reviewing and
                                certifying rural units on the “vital few” list.

                                Postal Service Headquarters officials established RDSOP
                                reviews as a national requirement for FY 2006 to help
                                create a consistent understanding of the requirements
                                necessary for well-run, highly efficient rural delivery
                                operations. The reviews focus on improving efficiency in an
                                evaluated workload environment, which will result in closer
                                alignment of actual to standard hours, reduced overtime,
                                and reduced auxiliary assistance hours. The RDSOP
                                requires 75 percent of all “vital few” units and units with
                                10 or more rural routes to achieve certification status by
                                September 30, 2006. Units that have fewer than 10 rural
                                routes and are not part of “vital few” will complete a self-
                                review.

                                The Postal Service's goal of improving efficiency in an
                                evaluated workload environment and alignment of actual to
                                standard hours could be adversely impacted if units are not
                                identified for review. During our review, area officials



                                                      12
Delivery and Retail Standard Operating Procedures –                                 DR-MA-06-008
 Great Lakes Area


                                identified units with 10 or more rural routes and established
                                review dates to certify them under RDSOP. Since officials
                                implemented corrective action during the review, we are not
                                making any recommendations.

                                In addition, the four units reviewed did not prepare the
                                workload analysis required by the RDSOP. Unit managers
                                at the Frankfort and Naperville Post Offices and the Park
                                Fletcher and Wanamaker Branches stated they did not
                                prepare the analysis because of the challenge of
                                implementing a new RDSOP during the holiday season.
                                Further, management stated that after the holiday season,
                                they had to prepare for the National Rural Mail Count,
                                conducted from February 24 through March 9, 2006.

                                The RDSOP require units to complete the “Rural Carrier
                                Guarantee Year” form every fourth week and “3-Hour
                                Analysis” each postal quarter. In addition, the RDSOP
                                requires units to develop a log of all carriers that exceed
                                3 hours per week over the route's evaluation hours. As a
                                result, workhour efficiency in an evaluated workload
                                environment and alignment of actual to standard hours
                                could be adversely impacted.

 Recommendation                 We recommend the Vice President, Great Lakes Area,
                                direct the District Managers, Central Illinois and Greater
                                Indiana, to require unit officials to:

                                    5. Prepare the rural delivery workload analysis.

 Management’s                   Management agreed with the finding and recommendation.
 Comments                       Management stated they have taken the necessary actions
                                to ensure that the required analyses and logs are not only
                                established and maintained at Central Illinois and Greater
                                Indiana Districts, but also throughout the remaining districts
                                in the Great Lakes Area.

 Evaluation of                  Management’s comments are responsive to our finding and
 Management’s                   recommendation. Management’s corrective actions, taken
 Comments                       and planned, should address the issues identified in the
                                finding.




                                                      13
Delivery and Retail Standard Operating Procedures –                                                DR-MA-06-008
 Great Lakes Area




 “Vital Few” List                 Area officials were continuing to address the challenges
                                  associated with the list of “vital few” performers. Great
                                  Lakes Area officials were monitoring and tracking the
                                  performance of the districts and delivery and retail units.
                                  The Area Vice President discussed performance scores in
                                  service and costs with each district manager on a quarterly
                                  basis. In addition, the Area Manager of Delivery Programs
                                  Support addressed “vital few” issues during the area’s
                                  leadership meetings. The area office also conducted
                                  business reviews of district and delivery and retail units.
                                  The area required units to provide action plans for
                                  deficiencies identified during these reviews.

                                  The Central Illinois District focused their efforts to help “vital
                                  few” units improve performance. District officials indicated
                                  that when they are satisfied with the progress of “vital few”
                                  units, they will expand their efforts and assist other units.
                                  Greater Indiana District officials developed the Delivery
                                  Management Academy for Supervisors17 (DMAS) training
                                  program for its customer service managers and supervisors.
                                  DMAS training will provide delivery and retail managers with
                                  the skills and tools they need to identify and take advantage
                                  of opportunities to improve operations and reduce costs.




17
  DMAS is a training program developed by the Greater Indiana District for its customer service managers and
supervisors. The focus of the DMAS training is delivery and retail management techniques and procedures.



                                                        14
Delivery and Retail Standard Operating Procedures –                             DR-MA-06-008
 Great Lakes Area




                                           APPENDIX A

                                PRIOR AUDIT COVERAGE

City Letter Carrier Operations – Greater Indiana District (Report Number DR-AR-
06-003, dated March 28, 2006). The report outlined opportunities to improve the
management of city letter carrier operations in the Greater Indiana District. Delivery
facility supervisors and managers did not adequately match workhours with workload.
We projected the sample results for a total of 68,177 unjustified hours over the 5-month
period from January 1 through May 31, 2005, that were not supported by volume or
workload (total unrecoverable costs of $765,487). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use Managed Service Points (MSP) to monitor city letter carriers’ street
time to correct negative trends, or properly document letter carriers’ unauthorized
overtime occurrences and take corrective action.

AM Standard Operating Procedures – Fiscal Year 2005 Financial Installation Audit
(Report Number FR-AR-06-096, dated March 20, 2006). The report outlined that at
28 of the 36 post offices, stations, and branches where AMSOP applied, management
had begun implementation. Of those, 11 had obtained certification and 17 were at
various stages of certification. At the time of our work, eight units had not begun
implementation. Several factors contributed to units not being certified. These factors
included issues with the mail arrival agreement with the processing and distribution
plant, posting and following the AMSOP, and Function 4 activities. We made no
recommendations in this report to management.

City Letter Carrier Operations – Detroit District (Report Number DR-AR-06-002, dated
February 8, 2006). The report outlined opportunities to improve the management of city
letter carrier operations in the Detroit District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 59,208 unjustified hours over the 5-month period from
January 1 through May 31, 2005, that were not supported by volume or workload (total
unrecoverable costs of $723,586). We also noted that supervisors and managers did
not always view DOIS reports in a timely manner to manage operations, consistently
use MSP to monitor city letter carriers’ street time to correct negative trends, or properly
document letter carriers’ unauthorized overtime occurrences and take corrective action.

Address Management Systems – Southwest Area – Rio Grande District (Report
Number DR-AR-06-001, dated January 25, 2006). The report outlined opportunities to
improve the quality of AMS data and put $988,945 of processing and delivery costs over
the next 10 years to better use. Management agreed with our findings and
recommendations and the $988,945 in funds put to better use.



                                                      15
Delivery and Retail Standard Operating Procedures –                             DR-MA-06-008
 Great Lakes Area



City Letter Carrier Operations – Chicago District (Report Number DR-AR-05-019, dated
September 29, 2005). The report outlined opportunities to improve the management of
city letter carrier operations in the Chicago District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 78,248 unjustified hours over the 5-month period from
September 1, 2004, through January 31, 2005, that were not supported by volume or
workload (total unrecoverable costs of $2,020,200). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – Santa Ana District (Report Number DR-AR-05-013,
dated August 8, 2005). The report outlined opportunities to improve the management of
city letter carrier operations in the Santa Ana District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 83,864 unjustified hours over the 5-month period from
May 1 through September 30, 2004, that were not supported by volume or workload
(total unrecoverable costs of $2,127,852). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – San Diego District (Report Number DR-AR-05-014,
dated August 8, 2005). The report outlined opportunities to improve the management of
city letter carrier operations in the San Diego District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 53,835 unjustified hours over the 5-month period from
May 1 through September 30, 2004, that were not supported by volume or workload
(total unrecoverable costs of $1,423,935). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – Rio Grande District (Report Number DR-AR-05-009,
dated December 2, 2004). The report outlined opportunities to improve management of
city letter carrier operations in the Rio Grande District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected that the
three delivery facilities had 5,318 unjustified hours (at an estimated cost of $193,947)
not supported by volume or workload over a 5-month period. We reported 2,543 of the
unjustified hours – or $92,762 – as unrecoverable costs. We also noted that
supervisors and managers did not effectively use DOIS to manage daily operations, and



                                                      16
Delivery and Retail Standard Operating Procedures –                              DR-MA-06-008
 Great Lakes Area


delivery unit supervisors and managers did not consistently perform street management
or effectively use MSP to monitor city letter carriers’ street time to correct negative
trends.

Function 4 – Customer Service Operations (Report Number DR-AR-04-014, dated
September 30, 2004). The Postal Service can improve the effectiveness and efficiency
of the Function 4 customer service process in meeting or exceeding its program goals
of monitoring and measuring the potential savings of customer service operations.
Specifically, Postal Service managers could improve customer service operations by
fully utilizing the standardized Function 4 reviews and sharing proven practices.

City Letter Carrier Office Preparation in the Dallas District (Report Number DR-AR-04-
005, dated July 26, 2004). The report stated that opportunities exist to improve Dallas
District city letter carrier office preparation operations. Specifically, impediments existed
that adversely impacted delivery supervisors/managers’ ability to adequately match
workhours with workload. In addition, city letter carriers’ work activities were not always
appropriate to ensure they departed the delivery unit as scheduled. Further,
supervisors/managers did not use the DOIS to assist in managing office activities.

City Letter Carrier Street Management and Route Inspections in the Fort Worth District
(Report Number DR-AR-04-001, dated June 22, 2004). The report stated that street
management and route inspections were generally efficient and effective at the
XXXXXXX and XXXXXX Stations. Delivery unit supervisors monitored city delivery
carriers’ street time to conserve workhours by performing at least the minimum number
of required street observations. However, while a route inspection was conducted at
the XXXXXX Station delivery unit, post route adjustment procedures were not followed
to maintain routes at 8 hours.

City Carrier Productivity – Letter Carrier Delays in the Baltimore District (Report Number
TD-AR-03-011, dated July 28, 2003). The report stated that early reporting wasted
carriers' morning time, and exposed the Baltimore District to potential unnecessary
evening overtime costs. It was noted supervisors/managers were not using DOIS to
manage carrier schedules, and consequently, could not use the system to evaluate
carrier scheduling or take corrective action.




                                                      17
Delivery and Retail Standard Operating Procedures –                                                    DR-MA-06-008
 Great Lakes Area


                                                APPENDIX B

                    GREAT LAKES AREA IMPLEMENTATION OF
            DELIVERY AND RETAIL STANDARD OPERATING PROCEDURES

                                             Implemented           Date of           Improvements
                                                                                              18
                        Areas of Focus        Procedures       Implementation          Needed
                          City Delivery
                      AMSOP                       Yes              10/2005                 Yes
                      Integrated                  Yes              10/2005                 Yes
                      Operating Plans
                      Delivery Point              Yes              10/2005                 No *
                      Sequencing
                      Collection Point            Yes              10/2005                 No
                      Management
                      Scanning                    Yes              10/2005                 No
                      Performance
                      Matching                    Yes              10/2005                 Yes
                      Workhours to
                      Workload
                      Volume Recording            Yes              10/2005                 No
                      Route Evaluations           Yes              10/2005                 No
                      and Adjustments
                      “Vital Few” Service         Yes              10/2005                 No
                      Improvements
                         Rural Delivery
                      RDSOP                       Yes              10/2005                 Yes
                      Growth and                  Yes              10/2005                 No
                      Delivery Point
                      Mgmt
                           Function 4
                      Function 4                  Yes               9/2005                 No
                      Business Review
                      RDM WOS19                   Yes              11/2005                 No

                      *Corrective action taken during the review.

                      Source: Information provided by Postal Service Great Lakes Area officials




18
   OIG determination based on review results.
19
   The Retail Data Mart Window Operations Survey (RDM WOS) tool is used during standardized Function 4 on-site
reviews at retail postal units. The tool provides information on the retail workload based on the number and types of
transactions conducted at the retail counter.



                                                          18
Delivery and Retail Standard Operating Procedures –                                    DR-MA-06-008
 Great Lakes Area


                     APPENDIX C. MANAGEMENT’S COMMENTS
JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS




September 26, 2006



KIM H. STROUD
DIRECTOR, AUDIT REPORTING
UNITED STATES POSTAL SERVICE OFFICE OF INSPECTOR GENERAL

SUBJECT: Delivery and Retail Standard Operating Procedures Audit - Great Lakes Area
         (Project Number 06XG016DR001) - Response

In reply to the audit findings outlined in the subject report referenced above, the following
responses are provided to each of the reports’ findings and associated recommendations,
as requested.

Morning Standard Operating Procedures (AMSOP)

Condition:

   Area officials did not have a specific plan to assist level 22 and above offices achieve
    AMSOP certification by the end of Fiscal Year 2006.
   As of April 2006, only 33 (17 percent) of the 199 level 22 and above delivery units in
    the Great Lakes Area were AM SOP certified.

Cause:

Central Illinois and Greater Indiana district officials stated most units have not been able to
meet the performance indicators required for AM SOP certification primarily due to
turnover and the experience level of supervisors.

Criteria:

The fiscal year 2006 goal is that all level 22 and above Delivery Operations Information
Systems (DOIS) sites become AMSOP certified by September 30, 2006.

Recommendation:

We recommend that the Great Lakes Area Vice President direct:

       Area Manager, Delivery Programs Support, to develop a specific plan that will
        assist the level 22 and above units achieve AM SOP certification by the end of FY
        2006.




                                                      19
Delivery and Retail Standard Operating Procedures –        DR-MA-06-008
 Great Lakes Area




                                                      20
Delivery and Retail Standard Operating Procedures –        DR-MA-06-008
 Great Lakes Area




                                                      21
Delivery and Retail Standard Operating Procedures –        DR-MA-06-008
 Great Lakes Area




                                                      22
Delivery and Retail Standard Operating Procedures –        DR-MA-06-008
 Great Lakes Area




                                                      23
